November 24, 2008

ASHLEY LYONS
MANAGER, CORPORATE FINANCIAL PLANNING

SUBJECT: Audit Report – Statistical Tests for Fiscal Year 2008 – Cost
         and Revenue Analysis (Report Number FF-AR-09-024)

This report presents the results of our audit of the statistical tests for fiscal year (FY)
2008 Cost and Revenue Analysis (Project Number 08BD003FF000). We reviewed
tests of the Origin-Destination Information System-Revenue, Pieces, and Weight (ODIS-
RPW); the In-Office Cost System (IOCS); the Transportation Cost System (TRACS);
and the System for International Revenue and Volume Outbound-International Origin-
Destination Information System (SIRVO-IODIS). We conducted the audit in support of
the U.S. Postal Service’s request for information on the adherence of districts’
compliance with testing procedures.1 Appendix A presents additional information about
this audit.

Conclusion

The Postal Service generally conducted tests of the ODIS-RPW, IOCS, TRACS, and
SIRVO-IODIS in accordance with established data collection policies and procedures.
However, we identified errors during 38 of 201 tests observed in 12 of the 14 districts.2
In this report, we discuss in detail only the most frequent testing errors, which we define
as those that occurred in at least 5 percent of the tests observed for a system. See
Appendix B for our summary of observations and testing errors by district.

The testing errors include the following.

Data collectors for 21 of 53 ODIS-RPW tests did not:

    •    Follow proper random start and skip intervals (23 errors).
    •    Identify, isolate, and capture mail to be tested (15 errors).
    •    Verify the information keyed into the xxxxxxxxxxxx xxxxxxx xxxx xxxxx xxxxxx
         xxxxxxx laptop (14 errors).

1
  This report does not present the results of audit work required under the Postal Accountability and Enhancement
Act of 2006.
2
  We observed ODIS-RPW, IOCS, and TRACS tests in 13 districts and SIRVO-IODIS tests in two districts. In one of
the two districts in which we observed SIRVO-IODIS tests, we also observed the other tests, for a total of 14 different
districts.
Statistical Tests for Fiscal Year 2008 –                                                           FF-AR-09-024
 Cost and Revenue Analysis


    •   Adhere to sampling procedures (8 errors).
    •   Bring required test material to the site (3 errors).

For one of 12 TRACS tests, data collectors did not identify, isolate, and capture Express
Mail to be tested.3

Data collectors for eight of 18 SIRVO tests did not:

    •   Verify the information keyed into the xxxxx laptop (12 errors).3
    •   Follow proper random start and skip intervals (2 errors).3
    •   Follow procedures for Weigh-Only receptacles (1 error).

In addition to the testing errors, data collectors in seven districts did not always follow
procedures for protecting data collection equipment. In March 2008, the Postal Service
issued a policy memorandum4 and instructed managers of Statistical Programs to
provide quarterly training to data collectors to properly secure and protect data
collection equipment. Therefore, we are not making a recommendation at this time.
We will continue to monitor this issue during our FY 2009 audits.

See Appendix C for our detailed analysis of these issues; Appendix D for the detailed
issues by district; and Appendix E for the conditions previously reported in our FY 20065
and 20076 reports. Our findings this year indicate continued noncompliance with
prescribed policies and procedures.

We recommend the Manager, Corporate Financial Planning, direct managers of
Statistical Programs to:

1. Reinforce data collection procedures by training data collectors to:

    •   Use the proper random start and skip intervals when conducting Origin-
        Destination Information System-Revenue, Pieces and Weight (ODIS-RPW) and
        System for International Revenue and Volume Outbound-International Origin-
        Destination Information System (SIRVO-IODIS) tests.

    •   Verify information keyed into the xxxxxxxxxxxx xxxxxxx xxxx xxxxx xxxxxx laptop
        when conducting ODIS-RPW and SIRVO-IODIS tests.

    •   Follow the correct sampling methodology for containers and mailpieces when
        conducting ODIS-RPW tests.

3
  We also identified this issue during ODIS-RPW observations.
4
  Policy Memo – Statistical Programs Letter #4, Fiscal Year 2008, Administration.
5
  Audit of Statistical Tests for Fiscal Year 2006 – Cost and Revenue Analysis (Report Number FF AR-07-093, dated
February 16, 2007).
6
  Audit of Statistical Tests for Fiscal Year 2007 – Cost and Revenue Analysis (Report Number FF-AR-08-084, dated
January 30, 2008).




                                                        2
Statistical Tests for Fiscal Year 2008 –                                         FF-AR-09-024
 Cost and Revenue Analysis



    •   Bring all necessary materials to the test site when conducting ODIS-RPW tests.

    •   Follow procedures for capturing mail in Weigh-Only receptacles when conducting
        System for International Revenue and Volume Outbound tests.

Management’s Comments

Management agreed with our finding and recommendation and by January 9, 2009, will
instruct district managers, Statistical Programs, to reinforce at the next quarterly training
day, the proper data collection procedures, including those items listed in our
recommendation. We have included management’s comments, in their entirety, in
Appendix F.

We recommend the Manager, Corporate Financial Planning, direct managers of
Statistical Programs to:

2. Develop a plan to establish and maintain oversight to ensure data collectors properly
   identify, isolate, and capture the required test mail.

Management’s Comments

Management agreed with our finding and recommendation and by February 6, 2009,
will issue instructions to district managers, Statistical Programs, to develop plans to
establish and maintain oversight to ensure data collectors properly identify, isolate, and
capture the required test mail.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and the corrective actions should
resolve the issues in the report.

The OIG considers both recommendations significant and, therefore, requires OIG
concurrence before closure. The OIG requests written confirmation when corrective
actions are completed for the recommendations. These recommendations should not
be closed in the follow-up tracking system until the OIG provides written confirmation
they can be closed.




                                              3
Statistical Tests for Fiscal Year 2008 –                                     FF-AR-09-024
 Cost and Revenue Analysis


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, Director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:     H. Glen Walker
        J. Ron Poland
        Vincent H. DeVito, Jr.
        Katherine S. Banks




                                           4
Statistical Tests for Fiscal Year 2008 –                                      FF-AR-09-024
 Cost and Revenue Analysis


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Under the Postal Reorganization Act of 1970, the Postal Service was required to break
even financially over time. Total revenue was to equal total costs incurred by the Postal
Service. Each class or type of mail service was to bear the direct and indirect costs
attributable to that class or type. Because Postal Service revenue and cost accounting
systems do not provide revenue and cost information at the mail category level, the
Postal Service develops and uses various statistical systems and special studies to
estimate the costs, revenues, and volumes for categories of mail. The Postal Service
uses these estimates to develop rates and budgets, conduct cost studies, measure mail
flow and service performance, and report on cost coverage of its products.

Under the Postal Accountability and Enhancement Act of 2006 (the Postal Act of 2006),
the Postal Service’s products have been divided into two categories: market-dominant
and competitive. Market-dominant product price increases cannot exceed the increase
in the Consumer Price Index (CPI) and apply to each class of mail. The price increase
for the category as a whole must not exceed the increase in the CPI. For competitive
products, the Postal Regulatory Commission (PRC) has set rules for a pricing floor that
must cover the product’s costs and a required contribution to institutional costs. The
Postal Service will have the flexibility to change pricing on competitive products as it
wishes, consistent with the PRC rules, as long as it is published in the Federal Register
at least 30 days before the effective date.

The Postal Act of 2006 requires the Postal Service to submit annual reports to the PRC
regarding its costs, revenues, rates, and quality of service. The act also requires the
OIG to regularly audit the data collection systems and procedures the Postal Service
uses to collect such information and to submit these reports to the Postal Service and
the PRC. This report does not present the results of the audit work called for under the
Postal Act of 2006. The OIG issues other reports on an ongoing basis for the audit
work required under the act.

ODIS-RPW is the primary probability sampling system used to assist in estimating
revenue, volume flow, weight, and performance measurement. The Postal Service
uses data from tests to develop new rates, assist in budget preparation, conduct
management studies, and support management decisions concerning mailflow and
service performance in transportation and operations. The ODIS-RPW test requires
data collectors to systematically select mailpieces using a random start for all mail
available on the randomly selected day. Data collectors record various mailpiece
characteristics, such as revenue, weight, shape, indicia, barcode, postmark time, and
origin and mail class.




                                            5
Statistical Tests for Fiscal Year 2008 –                                         FF-AR-09-024
 Cost and Revenue Analysis


IOCS is an employee work sampling system used to distribute the labor costs of clerks,
mail handlers, city delivery carriers, and supervisors to the activities carried out by those
employees and to classes and subclasses of mail and special services.

TRACS is a statistical sampling and data collection system that provides information to
estimate purchased transportation costs for major classes and subclasses of mail and
type of service. Although the Postal Service’s total purchased transportation costs are
available from the accounting records, the records do not indicate how much of the
transportation costs should be attributed to each specific class and subclass of mail and
special service. Since the characteristics of purchased transportation vary significantly
by mode of transportation, TRACS has four separate sampling systems – highway,
commercial air, network air, and rail.

SIRVO-IODIS is one of two sampling systems that estimates revenue, volume, and
weight of international mail for the Postal Service. Management uses SIRVO-IODIS
data to assist in budgeting and planning, forecasting mail volume, developing workload,
and measuring productivity.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the Postal Service conducted
statistical tests to collect cost, revenue, and volume data in accordance with established
policies and procedures. We observed 106 selected data collectors performing cost
and revenue analysis tests in 14 judgmentally selected districts.

Specifically, we judgmentally selected and observed a total of 201 tests, consisting of:

    •   53 ODIS-RPW tests
    •   118 IOCS tests
    •   12 TRACS tests
    •   18 SIRVO-IODIS tests

We interviewed the data collectors performing selected tests and reviewed the reports
of each test district the Statistical Programs managers provided.

We conducted this audit from March through November 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on October 29, 2008, and included their comments
where appropriate. We also issued interim reports to 14 district managers.




                                              6
Statistical Tests for Fiscal Year 2008 –                                                      FF-AR-09-024
 Cost and Revenue Analysis


PRIOR AUDIT COVERAGE

                                      Final
   Report            Report          Report     Monetary
    Title            Number           Date       Impact                  Report Results
Audit of            FF-AR-07-093      2/16/07     N/A      The Postal Service generally conducted tests of
Statistical Tests                                          ODIS-RPW, IOCS, TRACS, and SIRVO-IODIS
for Fiscal Year                                            in accordance with established policies and
2006 – Cost                                                procedures. However, data collectors did not
and Revenue                                                always:
Analysis
                                                           •   Use marking slips to identify test mail.
                                                           •   Follow mail exit point (MEP) and special
                                                               instructions while conducting ODIS-RPW
                                                               tests.
                                                           •   Observe the entire contents of vehicles
                                                               when collecting utilization data in TRACS
                                                               testing.

                                                           In addition, data collectors did not always follow
                                                           procedures for protecting data collection
                                                           equipment; data collectors had not attended the
                                                           required training before conducting tests; and
                                                           Statistical Programs managers did not properly
                                                           define MEPs.

                                                           We recommended management use training to
                                                           reinforce data collection procedures to ensure
                                                           the integrity of the statistical data. We also
                                                           recommended management reinforce policies
                                                           for protecting XXXXX laptops and other test
                                                           equipment, require training for data collectors
                                                           prior to their conducting tests, and properly
                                                           define MEPs.
Transportation      MS-AR-07-002      3/20/07     N/A      Overall, internal controls over TRACS were
Cost System                                                effective and TRACS data was valid and
                                                           reliable. We did not make any
                                                           recommendations in this report.




                                                   7
Statistical Tests for Fiscal Year 2008 –                                                     FF-AR-09-024
 Cost and Revenue Analysis




Audit of           FF-AR-08-084        1/30/08    N/A      The Postal Service generally conducted tests of
Statistical                                                ODIS-RPW, IOCS, TRACS, and SIRVO-IODIS
Tests for Fiscal                                           in accordance with established policies and
Year 2007 –                                                procedures. However, for ODIS-RPW tests,
Cost and                                                   data collectors did not always:
Revenue
Analysis                                                   •   Identify, isolate, and capture mail to be
                                                               tested.
                                                           •   Tag sampled mail after testing to release
                                                               for processing.

                                                           For TRACS tests, a data collector entered one
                                                           Express Mail piece as a Global Priority Mail®
                                                           piece.

                                                           For SIRVO-IODIS, we identified one testing
                                                           error that involved two data collectors in two
                                                           districts who incorrectly entered revenue into
                                                           the XXXXX laptops.

                                                           In addition to testing errors:

                                                           •   Data collectors did not always follow
                                                               procedures for protecting data collection
                                                               equipment.
                                                           •   Unit management did not always ensure
                                                               that electronic scales were leveled and
                                                               calibrated and did not document calibration
                                                               results.
In-Office Cost     CRR-AR-08-004       3/31/08   $12,355   The Postal Service has adequate policies for
System                                                     conducting telephone readings and recent
Telephone                                                  management actions have improved the quality
Readings                                                   of telephone readings. We noted issues in
                                                           three districts for which we made
                                                           recommendations to strengthen controls over
                                                           the integrity of IOCS data collection.
In-Office Cost     ESS-MA-08-001       8/11/08    N/A      We found differences in the distributions of the
System Phone                                               IOCS costs to mail categories based on
Readings                                                   telephone and on-site readings. Management
Additional                                                 agreed with the finding but disagreed whether
Analysis                                                   the differences were due to the sampling
                                                           method. Management performed some
                                                           additional analysis but disagreed whether
                                                           further analysis and monitoring for errors in
                                                           IOCS cost distribution caused by the sampling
                                                           methodology would be useful.




                                                   8
  Statistical Tests for Fiscal Year 2008 –                                                                FF-AR-09-024
   Cost and Revenue Analysis


           APPENDIX B: FY 2008 COST AND REVENUE ANALYSIS – SUMMARY OF
                OBSERVATIONS OF DATA COLLECTION PROCEDURES7



                                        ODIS-RPW                     IOCS                 TRACS           SIRVO-IODIS
                                                 Total                   Total                 Total                 Total
                                     Number     Number     Number       Number     Number     Number     Number     Number
                 8
                        Report       of Tests      of      of Tests        of      of Tests      of      of Tests      of
      District           Date       Observed     Errors   Observed       Errors   Observed     Errors   Observed     Errors
Greater Indiana        4/22/2008        4           1           10          0        1            0         0            0
Arizona                4/15/2008        4           8           10          1        1            0        0            0
Salt Lake              4/14/2008        4           5            9          1        1            1         0            0
                       4/21/2008        0           0            0          0        0            0        10           11
Honolulu
                       4/22/2008        4          14            9          1        1            0         0            0
Cincinnati             6/24/2008        4          11            9          0        1            0        0             0
Sierra Coastal         7/17/2008        4          16           10          2        1            0         0            0
Mid-Carolinas          7/30/2008        4           0            8          0        0            0        0            0
Long Island            8/19/2008        4           2            8          1        1            0        0            0
Baltimore              8/14/2008        4           2           11          3        1            0        0            0
Houston                7/31/2008        4           0            8          0        1            0        0             0
Louisiana               8/8/2008        4           4           10          0        1            0         0            0
New Hampshire/
                       8/27/2008        5          0            8           0        1            0         0           0
Vermont
Triboro                8/25/2008       0           0          0             0        0            0        8            4
Central Illinois        9/4/2008       4           0          8             0        1            0        0            0
Total                                  53          63        118            9        12           1        18           15




  7
    Although the percentage of tests with errors appears high, each test contains multiple records and fields.
  Therefore, the percentage of erroneous test entries is much lower than the total number of tests containing errors.
  8
    The two shaded districts had no reported errors.




                                                            9
Statistical Tests for Fiscal Year 2008 –                                                      FF-AR-09-024
 Cost and Revenue Analysis


                               APPENDIX C: DETAILED ANALYSIS

Origin-Destination Information System-Revenue, Pieces, and Weight

We observed 53 ODIS-RPW tests and identified 63 errors in 21 tests (see Appendix D)
during which data collectors incorrectly applied procedures. Specifically, data collectors
did not:

    •   Follow procedures to determine the appropriate random start and mailpiece
        and/or container skip intervals in six districts (23 errors). Data collectors must
        select the required mailpiece by applying the mailpiece skip interval through all
        containers selected using the container skip interval.9 In most instances, data
        collectors stated the errors were due to an oversight; however, some data
        collectors stated they did not follow sampling procedures because of time
        constraints.

    •   Identify, isolate, and capture mail to be sampled/tested in seven districts (15
        errors). The data collector is responsible for identifying, isolating, counting,
        sampling, and recording the necessary mailpieces at the appropriate MEP.10
        Data collectors cited various causes for the errors: in most instances, data
        collectors stated the errors were due to an oversight; two data collectors stated
        they were not aware of the requirements for identifying, isolating, and capturing
        mail; and one data collector stated she was confused about how to execute the
        special instructions for sampling mixed containers. We reported this issue
        previously in our FY 2006 and 2007 reports, indicating continued noncompliance
        with prescribed policies and procedures.

    •   Verify the information keyed into the xxxxx laptop in six districts (14 errors). The
        data collector must verify the information is correct when entering mailpieces into
        the xxxxx laptop.11 In most instances, the data collectors stated the data entry
        errors were due to an oversight.

    •   Adhere to container subsampling or mailpiece sampling procedures in four
        districts (eight errors). Data collectors must select the appropriate containers
        and/or mailpieces and record the information.12 In most instances, data
        collectors stated the errors were due to an oversight; however, one data collector
        stated she was confused about how to execute the special instructions for
        sampling mixed containers, and one data collector stated he was in a rush to pull
        the sample.


9
  Handbook F-75, Data Collection User’s Guide for Revenue, Volume, and Performance Measurement System,
Section 3.7.2, page 3-46, October 2003.
10
   Handbook F-75, Chapter 3, pages 3-5 through 3-207.
11
   Handbook F-75, Chapter 3, page 3-65.
12
   Handbook F-75, Section 3.6 and 3.7.




                                                    10
Statistical Tests for Fiscal Year 2008 –                                                             FF-AR-09-024
 Cost and Revenue Analysis


       •   Bring the required test material to the site in two districts (3 errors). Data
           collectors should always bring the MEP History Report printout to assist in
           establishing skip intervals.13 In one district, the data collector stated not bringing
           the report was an oversight. The Manager, Statistical Programs, at the other
           district stated a new employee forgot to include the reports in the two ODIS-RPW
           test packets.

When data collectors do not follow ODIS-RPW test procedures, there is an increased
risk of jeopardizing the Postal Service’s ability to accurately estimate revenue and mail
volume.

In-Office Cost System

We observed 118 IOCS tests and did not identify any issues in at least 5 percent of the
tests observed. See Appendix D for all errors identified in IOCS testing.

Transportation Cost System

We observed 12 TRACS tests and identified one error in one test (see Appendix D).
The data collector did not properly identify, isolate, and capture three hampers
containing Express Mail® prior to dispatch. The data collector must communicate with
facility personnel to ensure the type of mail to be tested is identified, flagged, and
isolated.14 The data collector stated he was unaware that clerks would dispatch the
mail before the test was conducted.

When collectors do not sample all mail intended for the TRACS test, there is an
increased risk the sample will not be representative of Express Mail pieces.

This is the same error type identified in this report under the ODIS-RPW heading and
was previously reported in our FY 2006 and 2007 reports, indicating continued
noncompliance with prescribed policies and procedures.

System for International Revenue and Volume Outbound-International Origin-
Destination Information System

We observed 18 SIRVO-IODIS tests in two districts and identified 15 errors in eight
tests (see Appendix D) in which data collectors applied procedures incorrectly.
Specifically, data collectors did not:

       •   Verify the information keyed into the xxxxx laptop in two districts (12 errors).
           Data collectors must enter receptacle, mailpiece, and service information into the



13
     Handbook F-75, Chapter 3, page 3-6, October 2003.
14
     Handbook F-65, Data Collection User’s Guide for Cost Systems, Section 8.1.1, page 8-5, September 2001.




                                                         11
Statistical Tests for Fiscal Year 2008 –                                                         FF-AR-09-024
 Cost and Revenue Analysis


         xxxxx laptop using the procedures outlined for SIRVO tests.15 In most instances,
         data collectors stated the errors were due to an oversight. In addition, one data
         collector stated he used the addressor section of the mailpiece by mistake, and
         one data collector stated he was unaware of the requirement of entering the
         postmark date from the earliest cancellation mark from a Computerized
         Forwarding System label.

     •   Follow procedures relating to skip intervals in one district (two errors). Data
         collectors must sample at the proper skip interval.16 The data collector stated he
         miscounted the mailpieces because he was counting them rapidly and put data
         into the incorrect screen because of an oversight.

     •   Follow procedures for Weigh-Only receptacles in one district (one error). For all
         Weigh-Only receptacles, data collectors must enter pieces from a substitute
         receptacle into the xxxxx laptop at a later date.17 The Supervisor, Statistical
         Programs, stated that a Statistical Programs employee from headquarters
         instructed the data collectors not to enter the Weigh-Only receptacle; therefore,
         the supervisor instructed the data collector to remove the receptacle from the
         database.

When employees do not follow SIRVO test procedures, it jeopardizes the Postal
Service’s ability to accurately estimate revenue and mail volume.

Computerized On-Site Data Entry System Equipment Security

Although not associated with any specific tests, we observed in seven of the 14 districts
data collectors not always following procedures for protecting the data collection
equipment (see Appendix D). Specifically, data collectors did not preserve the integrity
of test data by placing the xxxxx laptops into hibernation mode or by locking keyboards
when their laptops were unattended, as required. xxx xxxxx xxxxxxx xxxx x xxxxxxxx
xxxxxx xxxxxxxxxxxxx xxxxxxx xx xxxxx xxxx xxxxxxxxxxxxx xxxx xxxxx xx xxxxxxx;
xxxxxxx, xxxxxx xxxxx xx xxxxxxx, xxx xxxx xx xx xxxx.18 Also, when a xxxxx laptop is
not in use, it must be stored in a locked area with all other test equipment.19

Data collectors cited various reasons for not protecting the testing equipment. For
example, data collectors in three districts stated they did not place the XXXXX laptops
in hibernation mode due to an oversight. Three data collectors in two districts stated
they misunderstood the requirements for placing the XXXXX laptops in hibernation

15
   Handbook F-85, Data Collection User’s Guide for International Revenue, Volume, and Performance Measurement
Systems, Section 3.3, September 2006.
16
   Handbook F-85, Section 3.3, Figure 3.3.3-36, page 3-52.
17
   Handbook F-85, Section RM 3-1, pages 3-102 and 3-103.
18
   Handbook AS-805, Information Security, Section 10-5.4.2, March 2002 (updated with Postal Bulletin revisions
through November 23, 2006).
19
   Handbook F-75, Appendix G-7 (Section IV.F), Handbook F-85, Appendix B, Section IV, page B-9, and Policy
Memo – Statistical Programs Letter #4, FY 2008, Administration.




                                                      12
Statistical Tests for Fiscal Year 2008 –                                         FF-AR-09-024
 Cost and Revenue Analysis


mode. In one district, the data collector believed that by closing the laptop monitor, he
had placed the computer in hibernation mode; and in one district, the data collector
believed the laptop was within sight until the auditor brought it to her attention that the
laptop was not visible. When employees do not safeguard xxxxx laptops, there is an
increased risk of data loss.

In March 2008, the Postal Service issued a policy memorandum20 and instructed
managers of Statistical Programs to provide quarterly training to data collectors to
properly secure and protect data collection equipment. Therefore, we are not making a
recommendation at this time. We will continue to monitor this issue during our FY 2009
audits.




20
     Policy Memo – Statistical Programs Letter #4, FY 2008, Administration.




                                                           13
           Statistical Tests for Fiscal Year 2008 –                                                                                                         FF-AR-09-024
            Cost and Revenue Analysis


                               APPENDIX D: DETAIL OF FY 2008 TEST ERRORS AND OBSERVATIONS BY DISTRICT

           The table below presents the detailed test errors21 and observations identified by district.22

                                                                                                                                                              New
                                                 Greater                Salt                                Sierra      Long                               Hampshire               Central    Total
                                                 Indiana    Arizona     Lake      Honolulu    Cincinnati    Costal     Island     Baltimore   Louisiana    / Vermont    Triboro    Illinois    Test
Test Errors/Observations                         District   District   District    District    District     District   District    District    District      District   District   District   Errors
ODIS-RPW
Data collector did not follow procedures to
determine appropriate random start and                       X (3)      X (2)       X (4)        X (3)      X (10)                              X (1)                                          23*
mailpiece/container skip intervals.
Data collector did not properly identify,
isolate and capture mail to be sampled/            X (1)     X (2)      X (2)       X (2)                    X (5)      X (2)                   X (1)                                          15*
tested.
Data collectors did not verify the
                                                             X (3)      X (1)       X (1)        X (7)       X (1)                              X (1)                                          14*
information keyed into the xxxxx laptop.
Data collector did not adhere to container
sub-sampling or mailpiece sampling                                                  X (5)        X (1)                              X (1)       X (1)                                           8*
procedures.
Data collector did not bring the required
                                                                                    X (2)                                           X (1)                                                       3*
test material to the site.
IOCS
Data collector did not follow scripted
                                                                                    X (1)                    X (1)                  X (2)                                                       4
questions and/or ask leading questions.
Data collector added time to the total
reading for administrative time spent                        X (1)                                           X (1)                                                                              2
preparing for the test.
Data collector did not identify and record a
special service endorsement on a                                        X (1)                                                                                                                   1
mailpiece during reading.
Data collector did not follow procedures to
                                                                                                                        X (1)                                                                   1
record a reading when employee was late.
Data collector did not have an electronic
                                                                                                                                    X (1)                                                       1
scale during IOCS reading.
TRACS
Data collector did not communicate
effectively with unit personnel to ensure
                                                                        X (1)                                                                                                                   1*
test mail was identified, flagged, and
isolated.

           21
                The numbers of tests with errors are shown in parentheses.
           22
                Two of 15 district reports had no reported testing errors. See Appendix B for a complete list of districts and the test errors in each district.


                                                                                               14
           Statistical Tests for Fiscal Year 2008 –                                                                                                      FF-AR-09-024
            Cost and Revenue Analysis

                                                                                                                                                            New
                                              Greater                Salt                                  Sierra      Long                              Hampshire               Central    Total
                                              Indiana    Arizona     Lake      Honolulu    Cincinnati      Costal     Island     Baltimore   Louisiana   / Vermont    Triboro    Illinois    Test
Test Errors/Observations                      District   District   District    District    District       District   District    District    District     District   District   District   Errors
SIRVO-IODIS
Data collector did not verify the
                                                                                 X (8)                                                                                 X (4)                 12*
information keyed into the xxxxx laptop.
Data collector did not follow procedures
                                                                                 X (2)                                                                                                        2*
relating to skip intervals.
Data collector did not follow procedures
                                                                                 X (1)                                                                                                        1*
for Weigh-Only receptacles.
Other Observations
Data collector did not follow procedures to
protect data integrity and data collection                  X          X          X             X             X          X                                                          X         7
equipment.
The Manager, Statistical Programs, did
not document training received by the                                                                                                                        X                                1
employee.
Unit management did not always ensure
that scales used in conjunction with xxxxx                                        X                                                                                                           1
were leveled and/or calibrated.
Data collectors did not consistently
                                                                                                                                                                         X                    1
process short-paid mail.

           * Most frequent test error, occurring in more than 5 percent of the total tests for a system.




                                                                                           15
Statistical Tests for Fiscal Year 2008 –                                                                   FF-AR-09-024
 Cost and Revenue Analysis




                        APPENDIX E: SUMMARY OF TESTING ERRORS
                      AND MANAGEMENT ISSUES PREVIOUSLY REPORTED

                                                                                  Number of Testing Errors
                                                                                    FY      FY        FY
Description of Testing Error/Management Issue23                                    2008    2007      2006
Testing Error
                 ODIS-RPW – Number of Tests Observed                                53       57       76
Data collector did not follow procedures to determine appropriate random
                                                                                    23       -         3
start and mailpiece/container skip intervals.
Data collector did not properly identify, isolate, and capture mail to be
                                                                                    15       5        17
sampled/tested.
Data collectors did not verify the information keyed into the xxxxx laptop.         14       2         2
Data collector did not adhere to container sub-sampling or mailpiece
                                                                                     8       2         -
sampling procedures.
Data collector did not bring the required test material to the site.                 3       1         2
Data collector did not tag sampled mail after testing to release for
                                                                                     -       3         -
processing.
Data collector did not properly measure/record sampled mailpieces.                   -       2         -
Data collector did not communicate effectively with unit personnel to
                                                                                     -       1         3
ensure test mail was identified, flagged, and isolated.
Data collector did not notify unit management prior to conducting test.             -        -         1
Data collector did not follow MEP and Special Instructions.                         -        -         5
                    IOCS – Number of Tests Observed                                118      128       177
Data collector did not follow scripted questions and/or asked leading
                                                                                     4       2         6
questions.
Data collector added time to the total reading for administrative time spent
                                                                                     2       -         -
preparing for test.
Data collector did not identify and record special service endorsement on
                                                                                     1       -         -
a mailpiece during reading.
Data collector did not follow procedures to record a reading when the
                                                                                     1       2         -
employee was late.
Data collector did not have an electronic scale during IOCS reading.                 1        1
Data collector did not begin test by requesting to speak with a supervisor.          -        -        1
                   TRACS – Number of Tests Observed                                 12       14       17
Data collector did not communicate effectively with unit personnel to
                                                                                     1       -         -
ensure test mail was identified, flagged, and isolated.
Data collector was unfamiliar with entering Express Mail data into the
                                                                                     -       1         -
xxxxx laptop.
Data collector did not observe the entire contents of the vehicle.                   -        -        1
               SIRVO-IODIS – Number of Tests Observed                               18       34       15
Data collector did not verify the information keyed into the xxxxx laptop.          12        -        -
Data collector did not follow procedures relating to skip intervals.                 2        -        -
Data collector did not follow procedures for Weigh-Only receptacles.                 1        -        -
Data collector recorded revenue from postage amounts located
elsewhere on the mailpiece when the mailpiece contained an unreadable                -       2         -
postage paid amount.
Data collector did not send a mailpiece with postage due to the revenue
                                                                                     -       1         -
protection unit.
Data collector recorded packages with special drawing rights value as
                                                                                     -       1         -
insured under special services while other data collectors did not.
TOTAL NUMBER OF ERRORS                                                              88       26       41




23
     The cells highlighted in gray occurred in at least 5 percent of our observations.


                                                              16
Statistical Tests for Fiscal Year 2008 –                                                              FF-AR-09-024
 Cost and Revenue Analysis




                                                                                Number of Districts
                                                                               FY      FY        FY
Description of Error/Management Issue24                                       2008    2007      2006
                             Number of Districts                               14      13        18
Management Issue
Manager, Statistical Programs, did not properly define MEPs.                   -        -         2
Manager, Statistical Programs, did not ensure data collectors were
                                                                               -        -         2
properly trained prior to conducting the test.
Manager, Statistical Programs, did not document training the employee
                                                                               1        -         -
received.
Other
Data collector did not follow procedures to protect data integrity and data
                                                                               7        3         7
collection equipment.
Unit management did not always ensure that scales used in conjunction
                                                                               1        1         -
with xxxxx were leveled and/or calibrated.
Data collector allowed another data collector to use his xxxxx logon
                                                                               -        1         -
identification to enter mailpiece data.
Data collectors did not consistently process short-paid mail.                   1       -         -
TOTAL                                                                          10       5        11




24
     The cells highlighted in gray are reportable repeat findings.


                                                              17
Statistical Tests for Fiscal Year 2008 –                      FF-AR-09-024
 Cost and Revenue Analysis




                          APPENDIX F: MANAGEMENT’S COMMENTS




                                           18
Statistical Tests for Fiscal Year 2008 –        FF-AR-09-024
 Cost and Revenue Analysis




                                           19
